DOE F 1325.8
    (8-89)
EFG (07-90)

United States Government                                                     Department of Energy

Memorandum
DATE:          August 11, 2005                         Audit Report Number: OAS-L-05-09

REPLY TO:      IG-32 (A03AL042)

SUBJECT:       Audit of the National Nuclear Security Administration's Deferred Maintenance

TO:            Associate Administrator for Infrastructure and Environment (NA-50)


               INTRODUCTION AND OBJECTIVE

               In 2003, the National Nuclear Security Administration (NNSA) reported a $2.2
               billion backlog in deferred maintenance. NNSA defines deferred maintenance as
               maintenance that was not performed when it should have been or was scheduled to
               be, and therefore, is delayed for a future period. In 2004, the Senate Committee on
               Appropriations, Subcommittee on Energy and Water Development, expressed
               concerns about the funding levels for maintenance activities and the negative impact
               on deferred maintenance. As a result, the Subcommittee directed NNSA to request a
               budget that adequately funds maintenance activities to achieve an orderly reduction
               of the deferred maintenance backlog.

               NNSA corporate goals are to stabilize deferred maintenance by Fiscal Year (FY)
               2005 and reduce deferred maintenance to within industry standards by the end of FY
               2009. Both the Facilities Infrastructure Recapitalization Program (FIRP) and
               Readiness in Technical Base and Facilities program (RTBF) share the responsibility
               for meeting the NNSA goals. Part of the FIRP mission is to reduce the backlog of
               deferred maintenance. The RTBF program is directed at funding current year
               maintenance at levels sufficient to preclude the deferral of additional maintenance
               needs. Because of the importance of this issue, we initiated this audit to determine
               whether NNSA will meet its goals to stabilize deferred maintenance by FY 2005 and
               reduce deferred maintenance to within industry standards by FY 2009.

               CONCLUSIONS AND OBSERVATIONS

               NNSA has made some progress in reducing the deferred maintenance backlog, and
               sites reported that they will stabilize deferred maintenance by the end of FY 2005.
               Livermore, for example, completed several projects between October 2003 and April
2004 reducing deferred maintenance by nearly $16 million. However, NNSA
recognized that it is unlikely that deferred maintenance will be reduced to a level
within industry standards by FY 2009.

NNSA also recently contracted with an independent firm that (1) validated the
deferred maintenance costs; and, (2) estimated that sustainment costs would need to
be about 2 percent of the replacement plant value (RPV). Although NNSA has acted
to reduce its deferred maintenance, we observed issues that may further affect
whether NNSA will meet its goal. Specifically, we observed that NNSA is not:

    *   Fully funding annual required maintenance; and,

    * Including replacement-in-kind (RIK) projects among its planned activities.

                           Unfunded Required Maintenance

NNSA is not planning to fully fund annual required maintenance at two of the three
sites included in our review. Los Alamos National Laboratory (Los Alamos)
estimated its required maintenance for FY 2006 to be $113.4 million, yet NNSA only
plans to fund $104.3 million. We observed the same situation at the Y-12 National
Security Complex (Y-12). According to out-year budget projections and estimated
maintenance needs, we determined that NNSA would under-fund required
maintenance at Los Alamos and Y-12 by more than $243 million by FY 2014. This
number may actually be understated because both Los Alamos and Y-12 calculated
their required maintenance at less than the sustainment level of 2 percent of RPV, as
estimated by NNSA. Between FYs 2004 and 2014, forecasted required maintenance
for Y-12 and Los Alamos will average 1.26 percent and 1.82 percent of RPV,
respectively.

                                 Replacement-In-Kind

NNSA is not including replacement-in-kind projects in its deferred maintenance
totals. NNSA defines RIK projects as the replacement of subsystems such as roofs,
heating and cooling systems, electrical distribution systems, and other replacement
projects costing greater than $250,000. Similar to projects under this dollar threshold,
RIK projects are maintenance projects to extend the useful life of facilities, and
NNSA included them in its FY 2003 deferred maintenance baseline. However, in FY
2004, NNSA decided to separate RIK projects as a specific budget item and directed
sites not to report these high dollar projects as part of their maintenance or deferred
maintenance. NNSA officials told us that they intend to request separate funding for
RIK projects at some future time. According to site plans, RIK projects will increase
from $15 million in FY 2005 to $372 million in FY 2014.




                                          2
SUGGESTED ACTIONS

In order to fully address the Subcommittee's concerns to reduce the deferred
maintenance backlog, and to prevent additional maintenance deferrals, NNSA and its.
sites should ensure that annual maintenance is funded at no less than 2 percent of
replacement plant value. In addition, NNSA should reevaluate its decision to exclude
RIK projects from deferred maintenance totals.

SCOPE AND METHODOLOGY

We performed the audit from August 2003 through November 2003 and April 2004
through May 2005. We conducted our work at NNSA Headquarters in Germantown,
MD; and Washington, DC; Los Alamos National Laboratory in Los Alamos, NM;
Lawrence Livermore National Laboratory in Livermore, CA; and, the Y-12 National
Security Complex in Oak Ridge, TN.

To accomplish the audit objective, we interviewed NNSA personnel at Headquarters,
Lawrence Livermore National Laboratory, Los Alamos National Laboratory, and Y-
12 National Security Complex; reviewed and evaluated the Ten-Year Comprehensive
Site Plans and updates; determined if performance measures had been established for
stabilizing deferred maintenance; and, analyzed supporting documents related to
deferred maintenance.

We conducted the audit according to generally accepted Government auditing
standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not necessarily have disclosed
all internal control deficiencies that may have existed at the time of our audit. We did
not rely on information processed on automated data processing equipment to
accomplish our audit objectives. We held an exit conference with the Associate
Administrator for Infrastructure and Environment on July 21, 2005.

Since no recommendations are being made in this Letter Report, a formal response is
not required. We appreciate the cooperation of your staff throughout the audit.




                                George W. Collard
                                Assistant Inspector General
                                 for Performance Audits
                                Office of Inspector General

cc: Director, NNSA Policy and Internal Controls Management (NA-66)
    Team Leader, Audit Liaison Team, ME-100



                                         3
